Audit Report




OIG-11-096
SAFETY AND SOUNDESS: Material Loss Review of United
Western Bank
September 2, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report

Cause of United Western Bank’s Failure .............................................................           3
  High Concentration in Nonhomogeneous Loans ...............................................                   3
  High Concentration in Nonagency MBS ..........................................................               4
  High Concentration in Institutional Deposits ....................................................            5

OTS’s Supervision of United Western Bank .........................................................             6
  OTS Should Have Acted Sooner to Address Unsafe and Unsound
     Concentrations .......................................................................................     7
  OTS Did Not Require United Western to Amend Inaccurate TFRs ......................                           10
  OTS’s Use of Prompt Corrective Action ........................................................               12
  OTS’s Internal Failed Bank Review ................................................................           12

Concluding Remarks ......................................................................................... 13

Appendices

    Appendix     1:     Objectives, Scope, and Methodology ......................................              15
    Appendix     2:     Background..........................................................................   18
    Appendix     3:     Management Response .........................................................          20
    Appendix     4:     Major Contributors to This Report ...........................................          21
    Appendix     5:     Report Distribution ................................................................   22

Abbreviations

    FDIC                Federal Deposit Insurance Corporation
    MLR                 material loss review
    MRBA                matter requiring board attention
    OCC                 Office of Comptroller of the Currency
    OIG                 Office of Inspector General
    OTS                 Office of Thrift Supervision
    PCA                 prompt corrective action
    ROE                 report of examination
    TFR                 thrift financial report




                        Material Loss Review of United Western Bank Report (OIG-11-096)                   Page i
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General


                       September 2, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our material loss review of
                       the failure of United Western Bank (United Western), of Denver,
                       Colorado, and the Office of Thrift Supervision’s (OTS)
                       supervision of the institution. We are providing the results of
                       this review for your information since the Office of the
                       Comptroller of the Currency (OCC) assumed regulatory
                       responsibilities for thrifts pursuant to P.L. 111-203.

                       OTS closed the thrift and appointed the Federal Deposit
                       Insurance Corporation (FDIC) as receiver on January 21, 2011.
                       Section 38(k) of the Federal Deposit Insurance Act mandated
                       this review because of the magnitude of the thrift’s estimated
                       loss to the Deposit Insurance Fund. 1,2 As of July 31, 2011, FDIC
                       estimated that loss at $292.3 million.

                       The objectives of our review were to determine the causes of
                       the thrift’s failure; assess OTS’s supervision of the thrift,
                       including implementation of the prompt corrective action (PCA)
                       provisions of section 38; and make recommendations for
                       preventing any such loss in the future. To accomplish these
                       objectives, we reviewed the supervisory files and interviewed
                       key officials involved in the regulatory enforcement matters. We
                       also interviewed personnel at FDIC's Division of Resolutions and
                       Receivership. Appendix 1 contains a more detailed description
                       of our objectives, scope, and methodology. Appendix 2 contains

1
  Effective July 21, 2010, section 38(k) defines a loss as material if it exceeds $200 million for
calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million for
calendar years 2014 and thereafter (with a provision that the threshold can be raised temporarily to
$75 million if certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in Safety and
Soundness: Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.



                       Material Loss Review of United Western Bank Report (OIG-11-096)            Page 1
                       background information on United Western and OTS supervision
                       of the institution.

                       In brief, our review found that United Western failed primarily
                       because of high-risk concentrations in nonhomogeneous loans 3
                       made up of construction, land, commercial real estate, and
                       non-mortgage commercial loans; nonagency mortgage backed
                       securities (MBS); 4 and institutional deposits. 5 Regarding
                       supervision, OTS did not (1) adequately address the unsafe and
                       unsound concentrations or (2) require United Western to amend
                       inaccurate thrift financial reports (TFRs) in accordance with the
                       OTS handbook. We referred the thrift’s suspected false financial
                       reporting in its TFRs to the Treasury Inspector General’s Office
                       of Investigations.

                       In light of the fact that OTS functions transferred to other
                       federal banking agencies on July 21, 2011, we are not making
                       any new recommendations as a result of our material loss
                       review of United Western. We note that there is currently a
                       lawsuit against OCC brought by United Western, claiming the
                       bank was unlawfully closed. OCC became the defendant once
                       OTS’s functions were transferred. The lawsuit is in its
                       preliminary stage. We also note that there is a class action
                       lawsuit against United Western Bancorp (United Western’s
                       holding company) brought by the investors that purchased
                       shares of common stock from its 2009 stock offering.

                       We provided OCC with a draft of this report for its review. In a
                       written response, which is included as appendix 3, OCC did not
                       provide specific comments on the report contents.




3
  Nonhomogeneous assets have underwriting criteria that are less likely to be uniform and
classification decisions are based on broader considerations than just the loan’s delinquency status.
For example, nonhomogeneous loans may include construction, land, and land development loans,
commercial mortgage loans, multifamily mortgage loans, and commercial loans.
4
  A nonagency security is a security that is not issued by Fannie Mae, Freddie Mac, or Ginnie Mae.
Nonagency MBSs are subject to more credit risk, less liquid than agency securities, and are also
known as private label securities.
5
  Institutional deposits are a type of wholesale funding, which is defined as funds provided by
professional money managers and are generally more sensitive to credit risk and interest rates than
retail funds, causing them to pose a greater liquidity risk to a savings association.


                       Material Loss Review of United Western Bank Report (OIG-11-096)             Page 2
Cause of United Western Bank’s Failure
             United Western failed because of its high concentrations in
             nonhomogeneous loans, nonagency MBSs, and institutional
             deposits. OTS defines concentration as a group of similar types
             of assets or liabilities that, when aggregated, exceed 25 percent
             of the association’s core capital plus allowances for loan and
             lease losses (ALLL).

             High Concentration in Nonhomogeneous Loans

             Prior to 2006, United Western pursued a wholesale banking
             strategy where it purchased loans in the secondary market from
             mortgage brokers, rather than originating them itself. In 2006,
             United Western adopted a more traditional community banking
             strategy and began opening branches to attract retail deposits
             and to originate construction, land, commercial real estate, and
             non-mortgage commercial loans. OTS first noted a
             concentration in these nonhomogeneous loans in its Report of
             Examination (ROE) dated October 15, 2007. Nonhomogeneous
             loans represented 422 percent and 554 percent of core capital
             plus ALLL as of June 30, 2007, and March 31, 2009,
             respectively. United Western’s nonhomogeneous loan portfolio
             increased $457.7 million or 69 percent, from June 30, 2007, to
             March 31, 2009.

             As of March 31, 2009, United Western’s classified assets
             totaled $70.3 million or 3.11 percent of total assets, an
             increase from $25.2 million or 1.24 percent of total assets as of
             June 30, 2007, primarily due to an increase in problem
             nonhomogeneous loans. Loan loss provisions increased from
             $13.5 million in 2008, to $37.8 million in 2009, and
             $56.8 million in 2010. United Western recorded net losses of
             $69.4 million in 2009 and $68.8 million through the first three
             quarters of 2010. As a result of these losses on
             nonhomogeneous loans, United Western’s holding company,
             United Western Bancorp, Inc., had to infuse capital into the
             bank so that it could maintain well capitalized ratios. Capital
             downstreamed to United Western from its holding company
             totaled $12.0 million in 2008, $87.6 million in 2009, and
             $3.0 million in the first two quarters of 2010. Total risk based
             capital (RBC) reported by United Western decreased from


             Material Loss Review of United Western Bank Report (OIG-11-096)   Page 3
13.11 percent as of December 31, 2007 to 10.07 percent as of
December 31, 2009. In an amended TFR filed for the quarter
ended September 30, 2010, United Western’s RBC dropped to
7.8 percent, and United Western fell into the undercapitalized
capital category.

High Concentration in Nonagency MBS

In 2005 and 2006, United Western used prepayments from its
residential loan portfolio to purchase highly rated nonagency
MBS, which steadily increased the total value of its nonagency
MBS portfolio. United Western’s nonagency MBS represented
394 percent and 409 percent of core capital plus ALLL as of
March 31, 2006, and June 30, 2007, respectively. United
Western’s nonagency MBS portfolio increased $440 million or
210 percent, from March 31, 2005, to June 30, 2007.

At the end of 2008, United Western’s nonagency MBS started
experiencing deteriorating collateral performance, price declines,
and credit rating downgrades. At that time, the deterioration of
the nonagency MBS to below investment grade caused a
significant amount of other-than-temporary-impairment (OTTI)
losses, which resulted in a rapid decline in earnings. United
Western recorded its first OTTI of $4.1 million in the third
quarter of 2008, and subsequent OTTI losses of $21.7 million
and $27.8 million on December 31, 2009, and
September 30, 2010, respectively. As of March 31, 2009, the
collateral for the 31 below-investment-grade nonagency MBSs
out of 77 nonagency MBSs were concentrated in California and
Florida. According to 2009 U.S. Census data, California and
Florida had greater percentage decreases in median property
values than the national average. At March 31, 2009, the
percentage of United Western’s nonagency MBSs that were
highly rated, i.e., those rated either AAA or AA, had declined to
50 percent of its total MBS portfolio. At the same time, the
percentage of United Western’s nonagency MBSs that were
rated noninvestment grade, i.e., those rated BB and lower,
comprised 38 percent of its total nonagency MBS portfolio.

Many of the loans that served as collateral for United Western’s
nonagency MBS portfolio were originated by two large financial




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 4
                      institutions, Washington Mutual Bank (WaMu) 6 and
                      Countrywide Financial Corporation. It should be noted that these
                      institutions originated a significant number of poorly
                      underwritten loans that, like United Western, served as
                      collateral for nonagency MBS holdings by another failed thrift,
                      Guaranty Bank. Guaranty Bank was also the subject of a
                      material loss review by our office. 7

                      High Concentration in Institutional Deposits

                      United Western had a high concentration in institutional
                      deposits, which is considered a type of wholesale funding. For
                      the years ending 2008, 2009, and 2010, United Western’s
                      institutional deposits represented 591 percent, 668 percent,
                      and 987 percent, respectively, of core capital plus ALLL. OTS
                      noted in its 2009 ROE that the majority of United Western’s
                      deposits were concentrated in six institutional accounts, which
                      represented nearly 78 percent of the bank’s total deposits.

                      The OTS examination handbook lists over-reliance on wholesale
                      funding as a factor that could indicate or precipitate liquidity
                      problems. United Western’s high concentration in institutional
                      deposits created a potential liquidity crisis, and this risk was
                      escalated when United Western’s capital position declined in
                      early 2010. Many of the institutional depositors’ contracts with
                      United Western contained language that allowed the depositors
                      to terminate the contracts and remove their deposits from the
                      bank if United Western’s capital status was downgraded. United
                      Western fell to the capital level of adequately capitalized under
                      PCA with the filing of its March 31, 2010, TFR on
                      April 30, 2010, and to the capital level of undercapitalized with
                      the filing of its amended September 30, 2010, TFR on
                      December 8, 2010. When OTS denied United Western’s capital
                      restoration plan on January 18, 2011, United Western could no
                      longer assure its depositors it would return to adequate capital
                      levels. Therefore, United Western was at risk that the


6
  Treasury OIG and the FDIC OIG performed a joint review of the causes of WaMu’s failure and the
federal supervision exercised over the institution. Our April 2010 report describes the high risk
lending strategy used by WaMu. Treasury OIG and FDIC OIG, Evaluation of Federal Regulatory
Oversight of Washington Mutual Bank (EVAL-10-002), April 9, 2010.
7
  Safety and Soundness: Material Loss Review of Guaranty Bank (OIG-11-066), April 29, 2011.


                      Material Loss Review of United Western Bank Report (OIG-11-096)           Page 5
                       depositors would terminate their deposit contracts and
                       withdraw their deposits, causing a liquidity crisis.

                       Also, in November 2010, the FDIC determined that the
                       institutional deposits were brokered deposits. That
                       determination would have effectively restricted United
                       Western’s ability to retain and/or receive additional deposits
                       from institutional depositors had the thrift stayed open. 8 United
                       Western filed an appeal to that determination, but it had not
                       received a decision before it was closed. In addition to the risk
                       that the institutional depositors would withdraw their deposits,
                       United Western was also at risk of a liquidity crisis, had the
                       thrift stayed open, due to these brokered deposit restrictions.

                       In its supervisory memorandum that recommended FDIC be
                       appointed receiver, OTS stated that United Western’s excessive
                       reliance on four major institutional depositors was a factor that
                       placed the thrift in an unsafe and unsound condition to transact
                       business.


OTS’s Supervision of United Western Bank
                       OTS’s supervision of United Western did not prevent a material
                       loss to the Deposit Insurance Fund. OTS did not (1) adequately
                       address unsafe and unsound concentrations in
                       nonhomogeneous loans, nonagency MBS, and institutional
                       deposits; nor (2) require United Western to amend inaccurate
                       TFRs.

                       Table 1 summarizes the results of OTS’s full-scope safety and
                       soundness and limited-scope examinations of United Western
                       from 2007 until the thrift’s closure. 9 In general, a matter
                       requiring board attention (MRBA), although not an enforcement
                       action, is a stronger supervisory response than a corrective
                       action.



8
  Under 12 USC §1831(f), insured financial institutions may only accept or renew brokered deposits
if they are well capitalized. FDIC may, on a case by case basis, grant a waiver from this restriction
to adequately capitalized institutions.
9
  OTS conducted its examinations and performed off-site monitoring of United Western in
accordance with the timeframes prescribed in the OTS Examination Handbook.


                       Material Loss Review of United Western Bank Report (OIG-11-096)             Page 6
  Table 1: Summary of OTS’s Examinations and Enforcement Actions for United Western
                                               Examination Results
                                                         Number of
Date started/ Assets (in                     Number of corrective     Enforcement
completed     (billions)   CAMELS rating     MRBAs       actions      actions
10/15/2007
1/23/2008
                   $2.0           2/222222             0             2               None
Full-scope
examination
3/30/2009                                                                          Memo of
8/4/2009                                                                         Understanding
                   $2.2           3/332232             6            11
Full-scope                                                                          (MOU)
examination                                                                      (12/10/2009)
1/11/2010
4/28/2010                                                                         Cease and
Limited-           $2.6           4/444443             -             -           Desist Order
scope                                                                            (6/25/2010)
examination
6/17/2010
6/17/2010
Limited-           $2.6           4/444453             -             -               None
scope
examination
9/27/2010
Not Finished                      No Report
                   $2.2                                -             -               None
Full-scope                         Issued
examination
12/20/2010
12/22/2010
Limited-           $2.1           5/544553             -             -               None
scope
examination
   Source: OTS.

               OTS Should Have Acted Sooner to Address Unsafe and
               Unsound Concentrations

               Concentration in Nonhomogeneous Loans

               OTS New Directions 6-14, issued November 2006, states that
               OTS examiners should develop an effective supervisory
               response for financial institutions that have material exposure to
               specific risk concentrations and promptly initiate appropriate
               corrective or supervisory action, when necessary. Examiners
               may instruct the association to discontinue activities that lead
               to a specific high-risk concentration when proper oversight and
               controls are not in place.



               Material Loss Review of United Western Bank Report (OIG-11-096)                  Page 7
United Western’s concentration in nonhomogeneous loans,
specifically construction and land loans, grew rapidly beginning
in 2006 with the implementation of the community banking
strategy, through 2009. The concentration in construction loans
nearly tripled from 2006 to 2007, increasing from just
26 percent to 73 percent of core capital plus ALLL as of
June 30, 2007. By March 31, 2009, the concentration had
increased even further to 146 percent of core capital plus ALLL.
Similarly, the concentration in land loans tripled from 2006 to
2007, increasing from 10 percent to 38 percent of core capital
plus ALLL. As of March 31, 2009, land loans represented
55 percent of core capital plus ALLL.

OTS noted the concentrations in its 2007 ROE but did not
require any corrective actions to slow the rapid growth or set
limits for these high risk assets. In the 2009 ROE, OTS included
an MRBA directing United Western to set limits for the bank’s
concentration in nonhomogeneous loans, which by that time
represented 554 percent of core capital plus ALLL; however,
OTS did not take any enforcement actions to reduce the
concentration. During the 2009 examination, United Western
issued a board of directors’ resolution to cease the origination
of land and construction loans effective April 30, 2009.
However, this resolution did not cease the origination of other
nonhomogeneous loans; and at this time, nonhomogeneous
loans had been incurring losses and negatively affecting
earnings.

Several OTS officials told us that the rapid growth in United
Western’s nonhomogeneous loan portfolio was acceptable at
that time because it was part of the bank’s new community
banking strategy. Other OTS officials stated that OTS should
have required more asset diversification or restrictions on asset
growth, and that OTS could have acted sooner to reduce
concentrations. We believe that OTS should have acted sooner
to address the bank’s high concentration in nonhomogeneous
loans.




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 8
Concentration in Nonagency MBSs

In addition to a high concentration in nonhomogeneous loans,
United Western also had a high concentration in nonagency
MBSs and OTS failed to apply New Directions 6-14 to address
this concentration in assets. United Western’s MBS portfolio
more than doubled from 2005 to 2006, increasing from
165 percent to 394 percent of core capital plus ALLL. OTS
noted concerns with this high concentration in its
2007 examination but did not include a MRBA or corrective
action addressing its concerns in the 2007 ROE. During the
March 2009 examination, OTS directed United Western through
an MRBA to submit a plan to manage and continue to reduce its
significant exposure in nonagency MBSs. By this time, the
securities had been downgraded by ratings agencies due to the
deterioration of the real estate market beginning in 2008.

Until the deterioration of the previously AAA-rated nonagency
MBSs began to cause thrifts to experience losses in 2008, OTS
guidance had placed considerable weight on ratings assigned by
the ratings agencies. After observing the losses thrifts
experienced in their MBS investment portfolios, OTS updated its
examination handbook in January 2010 to instruct examiners to
more carefully review thrift investment decisions and ensure
that thrifts do the necessary due diligence when purchasing
securities. This new guidance stated that neither associations
nor examiners should rely solely on ratings when assessing the
credit risk of investment securities.

Concentration in Institutional Deposits

OTS Regulatory Bulletin 34, issued in June 2001, states that
examiners should seek corrective action when funding
instruments are inconsistent with safe and sound practices. As
early as 2004, OTS noted the concentration risk presented by
the institutional deposits. As of March 31, 2006, and
March 31, 2009, United Western’s institutional deposits
represented 98.6 percent and 86.9 percent, respectively, of its
total deposits. The largest institutional depositor represented
approximately 31 percent and 35 percent of total deposits as of
March 31, 2005, and March 31, 2006, respectively. After this
depositor acquired a subsidiary of United Western’s holding


Material Loss Review of United Western Bank Report (OIG-11-096)   Page 9
                       company in 2009, its deposits alone represented 46 percent of
                       total deposits. In the several examinations prior to the
                       2009 examination, OTS did not object to the concentration in
                       the small number of institutional depositors. During the
                       2009 examination, OTS addressed the funding concentration
                       with an MRBA, which stated that the concentration policy
                       should set limits for the bank’s funding sources, including
                       exposures to institutional depositors.

                       An OTS official told us that United Western’s funding structure
                       was never a viable structure and that it was at risk of failing
                       from a liquidity crisis. According to the official, this type of
                       funding structure should not be viewed as a safe and sound
                       banking practice going forward. We agree.

                       OTS Did Not Require United Western to Amend Inaccurate TFRs

                       According to the OTS examination handbook, examiners should
                       require a thrift to amend a prior period TFR if the adjustment is
                       significant and specifically if the adjustment results in a change
                       in the thrift’s PCA capital category.

                       OTS’s ROE for its 2009 examination noted that United
                       Western’s reported RBC position of well-capitalized as of
                       March 31, 2009, was overstated due to the incorrect use of the
                       ratings based approach (RBA) 10 in risk weighting 11 the thrift’s
                       MBS holdings that were rated lower than one category below
                       investment grade. MBS that are rated more than one category
                       below investment grade by a Nationally Recognized Statistical
                       Rating Organization (NRSRO) are not eligible for the RBA in
                       determining the bank’s RBC requirement. OTS, however, did not
                       require United Western to amend the March 31, 2009, TFR.

                       In August 2009, an OTS capital markets specialist disagreed
                       with United Western’s RBC calculation of 10.17 percent for the

10
   According to the OTS examination handbook, the ratings based approach allows for the possibility
of a lower risk-based capital requirement (reflecting less risk) for certain asset- or mortgage-backed
securities, recourse obligations, direct credit substitute, or residual interests arising from asset
securitization.
11
   Risk weighting, or a risk weighted asset, is an asset calculation used in determining the capital
requirement for an insured depository institution. Regulators use the risk weighted total to calculate
how much loss absorbing capital an institution needs to sustain it through difficult markets.


                       Material Loss Review of United Western Bank Report (OIG-11-096)            Page 10
June 30, 2009, TFR. The specialist discovered that United
Western again had not properly risk weighted some of its
nonagency MBSs. She estimated the RBC to be 9.95 percent,
or below the 10 percent threshold required for a thrift to be
considered well-capitalized under PCA. United Western’s CFO
agreed with the specialist’s estimate, but he made other
adjustments to the RBC calculation that resulted in RBC being
10.07 percent for the June 30, 2009 TFR. OTS, however, did
not verify the CFO’s recalculation, nor require United Western
to re-file the June 30, 2009, TFR.

During this timeframe in 2009, United Western’s holding
company, United Western Bancorp, issued a common stock
offering to raise capital. It completed the sale in
September 2009 and downstreamed $62 million of the
approximately $82 million raised to United Western to improve
its capital situation. The March and June 2009 TFRs, which
contained inaccurate information concerning United Western’s
capital category, were available to the public.

When asked why OTS did not require the bank to re-file its
March 2009 TFR, an OTS examiner told us that in May 2009,
when the TFR was made available, OTS did not review it in its
entirety due to time and resource constraints. The examiner also
stated that United Western management informed OTS in
June 2009 that United Western Bancorp would be infusing
capital into the bank and as a result, the bank would be well
capitalized by June 30, 2009. When asked why OTS did not
require United Western to re-file its June 30, 2009 TFR, the
examiner told us that the deadline for the September 30, 2009,
TFR was approaching and it would have been “too messy” to
re-file the June TFR. The examiner acknowledged that
continuing errors and probable overstatement of the RBC
percentage occurred in the June 2009 TFR. Based on the
guidance provided in the OTS examination handbook, we
believe that OTS should have required United Western to re-file
its March and June 2009 TFRs to reflect the true capital
position of the bank.




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 11
                        OTS’s Use of Prompt Corrective Action

                        The purpose of PCA is to resolve problems of insured depository
                        institutions with the least possible long-term loss to the Deposit
                        Insurance Fund. PCA requires federal banking agencies to take
                        certain actions when an institution’s capital drops below certain
                        levels. PCA also gives regulators flexibility to supervise
                        institutions based on criteria other than capital levels.

                        After United Western reported that its capital level was
                        undercapitalized in an amended TFR for September 30, 2010,
                        OTS notified United Western in writing on December 13, 2010,
                        of its undercapitalized status, relevant PCA restrictions, and
                        requirement to file a Capital Restoration Plan by
                        December 20, 2010. 12 United Western submitted a Capital
                        Restoration Plan, which was later rejected by OTS because OTS
                        deemed unreasonable United Western’s assumptions that
                        investors would invest an additional $100 million and OTS
                        would remove and waive provisions set in the cease and desist
                        order that restricted asset growth. Because of United Western’s
                        failure to submit a viable Capital Restoration Plan and the
                        unacceptable liquidity risk created by United Western’s
                        excessive reliance on four major institutional depositors
                        escalated by its undercapitalized status, OTS placed United
                        Western into receivership. We consider OTS’s use of PCA to be
                        timely.

                        OTS’s Internal Failed Bank Review

                        In accordance with its policy, OTS performed an internal failed
                        bank review to determine the causes of United Western’s
                        failure, evaluate the supervision exercised by OTS, and provide
                        recommendations based on the findings of the review. The OTS
                        review, completed in May 2011, determined that United
                        Western’s failure resulted from liquidity risk and losses from
                        concentrations in non-agency securities, construction loans,
                        land loans, nonresidential loans and commercial loans.

12
   United Western’s TFRs for March 31, 2010, and June 30, 2010, reported capital levels that met
the regulatory definition of adequately capitalized. Prior to that, the thrift reported capital levels that
met the regulatory definition of well capitalized during the period covered by our review. As
discussed previously, OTS had identified problems with United Western’s March 31 and
June 30, 2009,TFR reporting of RBC but did not require United Western to amend those TFRs.


                        Material Loss Review of United Western Bank Report (OIG-11-096)                Page 12
                       Although the review found that OTS provided regular oversight
                       of United Western, it also reminded OTS examination and
                       supervisory staff that they should consider higher capital
                       requirements as well as limitations on higher risk lending
                       concentrations. The internal review did not make any new
                       recommendations to OTS. According to the review, procedures
                       to control concentration risk are detailed in previous failed bank
                       reviews, and are appropriately addressed within CEO
                       Letter 311, Risk Management: Asset and Liability
                       Concentrations. 13


Concluding Remarks
                       Our material loss review of United Western revealed two
                       deficiencies in OTS supervision. First, OTS should have more
                       effectively addressed an unsafe and unsound concentration in
                       nonhomogeneous loans, nonagency MBS, and institutional
                       deposits. Second, OTS should have required United Western to
                       amend its TFRs in accordance with the OTS handbook.

                       We have reported on excessive concentrations and a lack of
                       strong supervisory response in a number of our material loss
                       reviews. To address the need for more direction on
                       concentration limits, and as noted in the OTS internal failed
                       bank review of United Western, OTS issued CEO Letter 311,
                       which emphasized important risk management practices and
                       encouraged financial institutions to revisit existing concentration
                       policies. While we believe the guidance was better than what
                       had been available to thrifts previously, it is too soon to tell
                       whether the guidance will be effective at controlling risky
                       concentrations going forward.

                       Pursuant to P.L. 111-203, the functions of OTS transferred to
                       other federal banking agencies on July 21, 2011. Accordingly,
                       we are not making any new recommendations to OTS as a
                       result of our material loss review of United Western.

13
   This guidance, issued on July 9, 2009, informs thrifts that OTS examiners will scrutinize higher
risk concentrations and pursue appropriate corrective or enforcement action when an institution
does not maintain appropriate concentration limits or takes excessive risks. The guidance states that
OTS will monitor institutions with a concentration exceeding 100 percent of core capital plus ALLL.


                       Material Loss Review of United Western Bank Report (OIG-11-096)           Page 13
                          * * * * *

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss the report, you
may contact me at (202) 927-0384 or Theresa Cameron, Audit
Manager, at (202) 927-1011. Major contributors to this report
are listed in appendix 4.



/s/
Jeffrey Dye
Audit Director




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 14
                         Appendix 1
                         Objectives, Scope, and Methodology




                         We conducted a material loss review of United Western
                         Bank (United Western) of Denver, Colorado, in response to our
                         mandate under section 38(k) of the Federal Deposit Insurance
                         Act. 14 This section provides that if the Deposit Insurance Fund
                         incurs a material loss with respect to an insured depository
                         institution, the inspector general for the appropriate federal
                         banking agency is to prepare a report to the agency that

                         •    ascertains why the institution’s problems resulted in a
                              material loss to the insurance fund;

                         •    reviews the agency’s supervision of the institution, including
                              its implementation of the prompt corrective action (PCA)
                              provisions of section 38; and

                         •    makes recommendations for preventing any such loss in the
                              future.

                         At the time of United Western’s failure on January 21, 2011,
                         section 38(k) defined a loss as material if it exceeded
                         $200 million during calendar years 2010 and 2011. The law
                         also requires the inspector general to complete the report within
                         6 months after it becomes apparent that a material loss to the
                         Deposit Insurance Fund has been incurred. We initiated this
                         material loss review of United Western based on the loss
                         estimate by the Federal Deposit Insurance Corporation (FDIC),
                         which was $312.8 million at the time of closing. As of
                         July 31, 2011, FDIC estimated that the loss would be
                         $292.3 million.

                         Our objectives were to determine the causes of United
                         Western’s failure; assess the Office of Thrift
                         Supervision’s (OTS) supervision of United Western, including
                         implementation of the PCA provisions of section 38; and make
                         recommendations for preventing such a loss in the future. To
                         accomplish our review, we conducted fieldwork at OTS’s
                         headquarters in Washington, D.C., and it’s Western Regional
                         Office, in Irving, Texas, and Western Regional Satellite Office,
                         in Daly City, California. We also interviewed officials of FDIC’s


14
     12 U.S.C. § 1831o (k).


                         Material Loss Review of United Western Bank Report (OIG-11-096)   Page 15
Appendix 1
Objectives, Scope, and Methodology




Division of Resolutions and Receivership and Division of Risk
Management Supervision. We conducted our fieldwork from
February 2011 through May 2011.

To assess the adequacy of OTS’s supervision of United
Western, we determined (1) when OTS first identified the
thrift’s safety and soundness problems, (2) the gravity of the
problems, and (3) the supervisory response OTS took to get the
thrift to correct the problems. We also assessed whether OTS
(1) might have discovered problems earlier; (2) identified and
reported all the problems; and (3) issued comprehensive, timely,
and effective enforcement actions that dealt with any unsafe or
unsound activities. Specifically, we performed the following
work:

•   We determined that the period covered by our audit would
    be from October 15, 2007, through the thrift’s failure on
    January 21, 2011. This period included two full-scope safety
    and soundness examinations and three limited-scope
    examinations of United Western.

•   We reviewed OTS’s supervisory files and records for United
    Western from 2007 through 2011. We analyzed examination
    reports, supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses
    to gain an understanding of the problems identified, the
    approach and methodology OTS used to assess the thrift’s
    and holding company’s condition, and the action used by
    OTS to compel thrift and holding company management to
    address deficient conditions. We did not conduct an
    independent or separate detailed review of the external
    auditor’s work or associated workpapers other than those
    incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of the thrift and holding company with OTS
    officials and examiners to obtain their perspectives on the
    thrift’s and holding company’s condition and the scope of
    the examinations. We also interviewed FDIC officials who
    were responsible for monitoring United Western for federal
    deposit insurance purposes.


Material Loss Review of United Western Bank Report (OIG-11-096)   Page 16
                        Appendix 1
                        Objectives, Scope, and Methodology




                        •   We selectively reviewed United Western’s documents that
                            had been taken by FDIC and inventoried by FDIC Division of
                            Resolutions and Receivership personnel. From FDIC’s
                            inventory list, we identified documents for our review that
                            were most likely to shed light on the reasons for the thrift’s
                            failure and OTS’s supervision of the institution.

                        •   We assessed OTS’s actions based on its internal guidance
                            and the requirements of the Federal Deposit Insurance Act. 15

                        •   We reviewed OTS’s internal failed bank review report of
                            United Western, dated May 17, 2011.

                        We conducted this performance audit in accordance with
                        generally accepted government auditing standards. Those
                        standards require that we plan and perform the audit to obtain
                        sufficient, appropriate evidence to provide a reasonable basis
                        for our findings and conclusions based on our audit objectives.
                        We believe that the evidence obtained provides a reasonable
                        basis for our findings and conclusions based on our audit
                        objectives.




15
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of United Western Bank Report (OIG-11-096)   Page 17
Appendix 2
Background




United Western Bank History

United Western Bank (United Western) was originally named
Dona Ana Savings and Loan Association, Inc., and began
operations as a state stock savings association in New Mexico
in October 1962. It changed its name to Dona Ana Savings and
Loan Association, FA, and converted to a federal stock savings
association on March 9, 1988. In January 1996, the bank
changed its name to Matrix Capital Bank and moved its
headquarters from Las Cruces, New Mexico, to Denver,
Colorado, in 2002. In September 2006, the bank changed its
name to United Western Bank. It was wholly owned by United
Western Bancorp, a publicly traded company, headquartered in
Denver.

United Western had its headquarters in Denver and eight
branches in the surrounding communities. Prior to 2006, the
bank pursued a wholesale business strategy, relying heavily on
institutional deposits for funding and MBSs as assets. In 2006,
the bank adopted a community banking strategy by establishing
additional branch locations to attract retail deposits and
originate commercial real estate, construction, land and
non-mortgage commercial loans, primarily within the Colorado
market. As the housing market deteriorated, United Western
incurred large losses on its loan and nonagency MBS portfolios,
which resulted in capital erosion.

OTS Assessments Paid by United Western

OTS funded its operations in part through semiannual
assessments on savings associations. OTS determined each
institution’s assessment by adding together three components
reflecting the size, condition, and complexity of an institution.
OTS computed the size component by multiplying an
institution’s total assets as reported on the thrift financial report
by the applicable assessment rate. The condition component
was imposed on institutions that had a 3, 4, or 5 CAMELS
composite rating. OTS imposed a complexity component if (1) a
thrift administered more than $1 billion in trust assets; (2) the
outstanding balance of assets fully or partially covered by
recourse obligations or direct credit substitutes exceeded


Material Loss Review of United Western Bank Report (OIG-11-096)   Page 18
Appendix 2
Background




$1 billion, or (3) the thrift serviced over $1 billion of loans for
others. OTS calculated the complexity component by
multiplying set rates times the amounts by which an association
exceeds each particular threshold. Table 2 shows the amounts
that United Western paid from 2007 through 2010.

Table 2: Assessments Paid by United Western to OTS, 2007—2010


   Billing Period              Exam Rating     Amount Paid
   1/1/2007–6/30/2007                2             $199,128
   7/1/2007–12/31/2007               2              191,551
   1/1/2008–6/30/2008                2              193,884
   7/1/2008–12/31/2008               2              200,025
   1/1/2009–6/30/2009                2              211,700
   7/1/2009–12/31/2009               2              214,949
   1/1/2010–6/30/2010                3              368,703
   7/1/2010–12/31/2010               4              489,874

 Source: OTS.


Number of OTS Staff Hours Spent Examining United Western

Table 3 shows the number of OTS staff hours spent examining
United Western from 2005 to 2010.

Table 3: Number of OTS Hours Spent Examining United Western,
2007-2010
                                  Number of
            Examination         Examination
             Start Date               Hours
             10/15/2007                    1,391
             3/30/2009                     3,054
             1/11/2010                       837
             6/17/2010                         2
             9/27/2010                     1,912
             12/20/2010                       26
     Source: OTS.




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 19
Appendix 3
Management Response




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 20
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Dana Duvall, Auditor-in-Charge
Patrick Gallagher, Auditor
Marco Uribe, Auditor
Jen Ksanznak, Auditor
Lisa Ginn, Referencer




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 21
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of United Western Bank Report (OIG-11-096)   Page 22
